OFFICE OF INSPECTOR GENERAL


AUDIT OF USAID/SENEGAL’S
ACTIVITIES UNDER THE
PRESIDENT’S MALARIA
INITIATIVE
AUDIT REPORT NO. 7-685-12-007-P
AUGUST 7, 2012




DAKAR, SENEGAL 

Office of Inspector General


August 7, 2012

MEMORANDUM

TO:                  USAID/Senegal Mission Director, Henderson Patrick

FROM:                Regional Inspector General/Dakar, Gerard Custer /s/

SUBJECT:             Audit of USAID/Senegal’s Activities Under the President’s Malaria Initiative
                     (Report No. 7-685-12-007-P)


This memorandum transmits our final report on the subject audit. We have considered carefully
your comments on the draft report and have included them in their entirety (minus attachments)
in Appendix II.

The report includes two recommendations. With the information you provided in your response
to the draft report, we determined that final action has been taken on both recommendations
and we consider Recommendations 1 and 2 closed upon report issuance.

I appreciate the cooperation and courtesy you extended to my staff during the audit.




U.S. Agency for International Development
Ngor Diarama
Petit Ngor
BP 49
Dakar, Senegal
www.usaid.gov/oig
CONTENTS 

Summary of Results ................................................................................................................... 1 


Audit Finding ............................................................................................................................... 3 


     Partners Did Not Adequately Monitor Health Facilities ........................................................... 3 


Evaluation of Management Comments..................................................................................... 6 


Appendix I—Scope and Methodology ...................................................................................... 7 


Appendix II—Management Comments ..................................................................................... 9 





Abbreviations

The following abbreviations appear in this report:

ACT             artemisinin-based combination therapy
FY              fiscal year
PMI             President’s Malaria Initiative
RDT             rapid diagnostic test
RIG             Regional Inspector General
SUMMARY OF RESULTS 

The United States launched the President’s Malaria Initiative (PMI) in 2005 to reduce the effects
of malaria in Africa. U.S. legislation extended PMI activities through the end of 2014. The U.S.
Government implements PMI activities in 19 African countries and in Southeast Asia. The goal
is to reduce malaria-related burden (morbidity and mortality) by 70 percent in targeted countries
by 2015.1 In Senegal, one of the African focus countries, USAID began implementing PMI
activities in fiscal year (FY) 2007. The FY 2010 and 2011 budgets for the mission’s PMI
activities were $27.0 million and $24.5 million. During these years, the mission worked to
implement activities through contracts, cooperative agreements, and task orders with 11 prime
partners. Of those 11, USAID’s Regional Inspector General in Dakar (RIG/Dakar) selected for
audit the four partners and activities shown in the table below.
                                            Audited Activities

                                                                                  Agreement/Task Order
        Implementing
                                                Activities                        Amount*
           Partner                                                                             Dates
                                                                                 ($ million)
                             Leads a consortium of international partners
                                                                                            7/2006­
    ChildFund Senegal        in the strengthening, expansion, and support            12.7
                                                                                            9/2011†
                             of community health activities
                             Provides technical support to clinical health-
    IntraHealth                                                                             6/2006­
                             care providers in malaria, family planning,             6.9
    International                                                                           9/2011†
                             maternal, neonatal, and child health services.
                                                                                            Washington-
                                                                                            based
                             Provides support to increase the availability
    John Hopkins                                                                            cooperative
                             and use of long-lasting insecticide-treated bed         9.5
    University                                                                              agreement
                             nets via the NetWorks Project.
                                                                                            9/2009­
                                                                                            9/2014
                                                                                            Washington-
                             Provided indoor residual spraying to                           based task
    RTI International        households to deter and kill residential                15.3   order
                             mosquito populations.                                          9/2009­
                                                                                                    †
                                                                                            9/2011
* Amount listed is obligations to date of only PMI funding for malaria activities.
†
   In September 2011, USAID/Senegal signed new agreements with both ChildFund Senegal and
IntraHealth International. The ChildFund agreement is for 5 years and has a budget of $40 million, and
the IntraHealth agreement is for 5 years and has a budget of $32 million. Both agreements include
scopes of work beyond malaria prevention and treatment activities. Additionally, the mission is continuing
indoor residual spraying through a Washington-based contract with Abt Associates; the USAID/Senegal
budget for this activity in FY 2012 was $6 million.

The objective of the audit was to determine whether USAID/Senegal achieved its goals of
increasing utilization of insecticide-treated bed nets, indoor residual spraying, treatment of
malaria cases, and coverage of pregnant women with intermittent preventive treatment during
FYs 2010 and 2011.
1
  President’s Malaria Initiative, Malaria Operational Plan Year Six–Fiscal Year 2012, Senegal,
November 11, 2011. For more information, see the President’s Malaria Initiative Web site, www.pmi.gov.



                                                                                                          1
The audit determined that the mission met its goals for PMI-related activities during FYs 2010
and 2011. Successes included spraying more than 490,000 structures to deter residential
mosquito populations, providing more than 3 million bed nets to beneficiaries, including the
completion of three phases of national distribution campaigns covering 10 of the 14 regions, and
training more than 20,000 people on malaria prevention and treatment techniques. To prevent
malaria in pregnant women, partners trained health-care personnel nationwide and informed the
public of the risks of malaria during pregnancy. Senegal has seen improvement in malaria
indicators since USAID/Senegal began PMI activities, such as an increase in the percentage of
households with a bed net, the percentage of pregnant women and children sleeping under a
bed net, and a decrease in the percentage of women of childbearing age with anemia. All of
these successes occurred amid challenges. Since June 2010, a national strike by health-care
workers has prevented the collection of certain data on services provided by the clinical health
system in the country. Also in FY 2011, Senegal experienced repeated shortages of the drug
needed for intermittent preventive treatment of malaria in pregnant women.

Notwithstanding the successes, the audit noted that partners were not adequately monitoring
health facilities and beneficiaries under their purview (page 3). The audit found the facilities
were out of drugs, used expired malaria tests, and lacked inventory controls, and recipients of
bed nets did not always use them as prescribed.

To resolve these problems, RIG/Dakar recommends that USAID/Senegal:

1. 	 Implement a plan to strengthen the monitoring of health huts by the ChildFund consortium
     (page 5).

2. 	 Implement a plan to strengthen the monitoring of health facilities by IntraHealth International
     (page 5).

Detailed findings appear in the following section. Appendix I contains information on the scope
and methodology. Management’s comments are included in their entirety in Appendix II (minus
attachments), and our evaluation of management comments is on page 6.




                                                                                                  2
AUDIT FINDING 

Partners Did Not Adequately
Monitor Health Facilities
Senegal has a decentralized health system comprising 14 regions, each directed by a regional
chief medical officer. The regions are further divided into 76 health districts in which district
chief medical officers and health management teams oversee care, treatment, and prevention.
Among these facilities are health posts, which exist in the larger population centers in each
district. At the local level, more than 1,600 “functional”2 health huts provide routine health
services to roughly 19 percent of the country’s population. Community health workers—in some
cases supported by trained birth attendants and health educators—run the health huts with
supervision from the nurse at the nearest health post. The medical commodities (medicines,
supplies, etc.) that these workers dispense flow through the national distribution system from
the central medical stores in Dakar to the 11 regional medical stores, to district health offices
and health posts, and then to health huts.

Two of the four audited agreements were designed to improve services at different levels of the
national system. IntraHealth provides technical assistance, training, and supervision to medical
personnel at the health district and post levels; ChildFund provides technical assistance,
training, and supervision to workers at health huts.

The mission’s agreements with IntraHealth and ChildFund emphasize monitoring. The
IntraHealth cooperative agreement states that dedicated staff “will travel frequently to provide
supportive site visits,” and, through these, supervise activities, strengthen accountability, and
increase service quality at the district level, including health posts. The ChildFund agreement
requires mentoring, monitoring, and supervision of health hut personnel.             In addition,
ChildFund’s program management plan specifies that monitoring personnel are to “ensure
timely and accurate monitoring [and] evaluation of program activities.”

PMI activities that require monitoring include the storing and tracking of commodities. The U.S.
Government Accountability Office’s Standards for Internal Control in the Federal Government
requires government agencies and their programs to institute internal controls to account for
such assets properly. Examples include periodic counts and reconciliation of assets to
inventory records, proper recording of transactions, and internal control policies and procedures
that are documented and available for review.

In the two districts visited for the audit, the state of operations and discussions with beneficiaries
revealed inadequate monitoring.

In Malème Hodar, site visits to the district health office and three health posts (two of which
were promoted from health huts in late 2011) disclosed several control weaknesses. For
example, at all four locations, there were expired artemisinin-based combination therapies
(drugs known as ACTs). The drugs had expired several months earlier. It was difficult to
2
  A functional health hut has a trained community health worker (literacy is preferred but not required),
regularly supervised by the chief nurse of the nearest health post, and the basic equipment and space
needed to provide services.



                                                                                                       3
determine how many or for how long the pharmacies were in possession of the expired drugs
because none of the locations maintained accurate inventory records. All personnel stated that
they had requested but not received new shipments of ACTs. In addition, at the district office,
the audit found approximately 300 bed nets that had not been distributed as part of the 2011
national campaign. Mission officials stated that these nets were being held until the routine bed
net distribution system becomes active.

In Guinguinéo, sites visited included the district health office, two health posts, and two health
huts. Here, not only were accurate stock records for malaria commodities lacking, but also the
only available rapid diagnostic tests (RDTs—blood tests used to diagnose malaria) had expired
4 months earlier. One health post nurse said she had used an expired RDT the morning of our
visit without noticing the expiration date, December 2011, which was printed clearly on the top
of the box. Additionally, 314 USAID-purchased bed nets that the mission believed had been
distributed remained in the district warehouse. Results were similar at both health huts. One
had only expired RDTs in stock and its children’s dosages of ACTs had expired. At the other
health hut, the consultation records showed that the community health worker had not consulted
with any patients in more than a year. She stated this was because she had not received any
stock, including malaria drugs and RDTs, in that time. She also said that instead of seeking
treatment at the health hut, sick people from the village went to the “close by” health post,
approximately 6 kilometers away.

During the site visits, we interviewed beneficiaries who had received bed nets and guidance on
their use from USAID-funded partners during the 2011 national distribution campaign. The
interviews made clear that use of bed nets varied greatly. In one village, of the 25 nets given to
four families, none were being used correctly. In another village, 18 of the 31 donated nets
were used correctly. In yet another village, all nine donated nets had been used the night
before, in addition to other nets obtained by the families. In total, of the 88 nets donated by
USAID during the 2011 national campaign that the audit tracked, 41 (47 percent) were hung and
used the night before. The reason most often cited by recipients for not using the bed nets was
that it was too hot to sleep under them. However, the temperature and climate in all the villages
are the same due to their close proximity. The mission is continually working with all partners to
promote the more effective and consistent use of bed nets.

In 2011, USAID/Senegal funded two evaluations related to the scope of this audit, one an
assessment of the Senegalese central medical stores and the second a final evaluation of the
Community Health Program implemented by the ChildFund consortium. The evaluations noted
many of the same problems observed during this audit although the evaluations concerned
health districts that the audit did not visit. The assessment of the medical stores noted a lack of
formal, written inventory control mechanisms; storage weaknesses; the inability to quantify the
commodity needs in the system; and a lack of proper oversight and monitoring. The Community
Health Program evaluation raised concerns about the quality and effectiveness of the ChildFund
consortium’s monitoring at the health huts and recommended that program monitors receive
additional training.

The evaluations indicate that the problems did not occur because the national distribution
system lacked the proper resources. The assessment of the central medical stores stated that
the Senegalese system did not lack qualified management personnel or funding. In addition,
the report noted that the national system for distributing health-care commodities actually
generates profits for health-care facilities. Furthermore, many times during the course of the
audit, individuals with years of experience working with the national distribution system stated
that it “used to work” and that “there is nothing wrong” with the design of the system, only with


                                                                                                 4
ensuring it is managed properly. (To try to address these concerns, the mission began a new
Health Systems Strengthening Program in FY 2012.) Essentially, when it comes to the
USAID/Senegal PMI activities, the above-mentioned problems occurred because implementing
partners did not adequately monitor health posts and health huts. The lack of supervision led to
inconsistent operations and conduct by beneficiaries.

Without proper monitoring of the USAID-funded prevention and treatment activities,
USAID/Senegal may not meet its overall PMI goals. In addition, the sustainability of the
achievements could be in jeopardy. Given the mission’s intention to begin using the national
distribution system for routine distribution of nets, we are concerned—given the problems we
observed with the distribution of commodities—that the system may not adequately ensure that
bed nets are available for the intended beneficiaries.

Therefore, the audit makes the following recommendations.

   Recommendation 1. We recommend that USAID/Senegal, in conjunction with the
   ChildFund consortium, implement a plan to strengthen the supervision provided to health
   huts.

   Recommendation 2. We recommend that USAID/Senegal, in conjunction with
   IntraHealth International, implement a plan to strengthen the supervision provided to
   district health facilities.




                                                                                              5
EVALUATION OF MANAGEMENT
COMMENTS
USAID agreed with both recommendations in the draft report. Having reviewed the actions taken
by the mission and the supporting documentation provided, we have determined that final action
has been taken on Recommendations 1 and 2, and we consider them closed upon issuance of
this report. In addition, we have clarified the report based on the mission’s comments. Our
evaluation of management comments is shown below.

Recommendation 1. The mission agreed and has, in conjunction with the ChildFund
consortium, instituted improvements to supervision activities. Specifically, all members of the
consortium have participated in the establishment of improved supervisory visit guidelines and
approaches. In addition, ChildFund established a plan for strengthening supervision, discussed
it with the mission, and is implementing it. Accordingly, final action has been taken on this
recommendation.

Recommendation 2. The mission agreed and has worked with IntraHealth to improve
supervision activities. IntraHealth developed a plan of action on reinforcing supervision,
discussed it with the mission, and is implementing it. Accordingly, final action has been taken
on this recommendation.




                                                                                             6
                                                                                       Appendix I



SCOPE AND METHODOLOGY
Scope
RIG/Dakar conducted this audit in accordance with generally accepted government auditing
standards.3 Those standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and conclusions, in
accordance with our audit objective. We believe that the evidence provides that reasonable
basis. The purpose of the audit was to determine whether USAID/Senegal’s PMI activities were
increasing utilization of insecticide-treated bed nets, indoor residual spraying, treatment of
malaria cases, and coverage of pregnant women with intermittent preventive treatment.

The audit reviewed the activities of four of USAID/Senegal’s primary partners during FYs 2010
and 2011.       Two partners (John Hopkins University and RTI) had Washington-based
implementing mechanisms (an agreement and an indefinite quantity contract, respectively),
which the mission bought into for distributing bed nets and doing indoor residual spraying, and
two (the ChildFund consortium and IntraHealth Inc.) had agreements with USAID/Senegal.
Total PMI funding for these four activities as of June 13, 2012, was $44.4 million, of which $20.3
million was obligated for these four projects during FYs 2010 and 2011. In addition, the audit
reviewed other activities and products funded by USAID/Senegal as they related to the audited
indicators and activities. Fieldwork was conducted at USAID/Senegal in Dakar and at various
other sites in-country from April 12 to May 16, 2012.

As part of the audit, the auditor assessed controls that the mission used to manage activities.
These included (1) site visits conducted and documented to evaluate progress, (2) reviews of
partner progress as reported in quarterly and annual reporting requirements, and (3)
comparison of reported progress with planned progress, (4) the mission’s own evaluations of
progress, and (5) relevant USAID policies from the Automated Directives System and
USAID/Senegal mission orders. Additionally, the auditor examined the mission’s FY 2010 and
FY 2011 annual self-assessment of management controls, which the mission is required to
perform to comply with the Federal Managers’ Financial Integrity Act of 1982,4 to determine
whether the assessment cited any relevant weaknesses that could affect the audit.

Methodology
To determine whether the mission was achieving its goals, the auditor interviewed officials from
USAID/Senegal and the partners, Senegalese health-care providers, and beneficiaries. The
auditor also reviewed USAID, partner, and beneficiary documents related to the activities.
These documents included the contracts and cooperative agreements and associated
modifications, mission and partner performance reporting tools and supporting documentation,
partners’ annual reports, and two evaluations funded by USAID/Senegal during the review
period.



3
    Government Auditing Standards, December 2011 Revision (GAO-12-331G).
4
    Public Law 97-255, as codified in 31 United States Code 3512.



                                                                                                7
                                                                                        Appendix I


The audit focused on five performance indicators in the Performance Plan and Report to verify
the accuracy and reliability of the reported performance data. The auditors interviewed mission
and implementer staff members regarding processes for collecting, verifying, and reporting
performance results. The auditor compared the results reported for the indicators with
supporting documentation to determine whether the results met USAID’s data quality standards.
Based on the tests performed, the auditor found that the results met USAID’s standards for
validity and reliability.

In validating reported performance results, the auditor tested reported results on five
performance indicators, checking the data reported during the period covered by the audit
against records on file. The auditor selected a judgmental sample of items for testing. As a
result, the results and overall conclusions are limited to the items tested and cannot be
projected to the entire audit universe.

Initial meetings were conducted at the implementing partners’ primary country offices in Dakar.
Additional meetings took place at regional partner offices in and around the cities of Kaolack
and Kaffrine. In the health districts of Malème Hodar and Guinguinéo, site visits were
conducted to district health offices, health posts, and health huts. The auditor visited four
villages where beneficiaries received health services and bed nets to consider the impact of the
activities as well as the sustainability of that impact. In addition, the auditor visited two former
soak pits used for the cleaning of insecticide spraying equipment and the warehouse in Kaolack
used by Abt Associates. During these visits, the audit also verified that the partner was actually
implementing selected activities.




                                                                                                  8
                                                                                            Appendix II



MANAGEMENT COMMENTS 



                                           MEMORANDUM


DATE:             July 23, 2012

TO:               Regional Inspector General/Dakar, Gerard Custer

FROM:             Henderson Patrick, Mission Director, USAID/Senegal

REF:              RIG/Dakar Draft Audit Report No. 7-685-12-00X-P


This memorandum transmits USAID/Senegal’s management comments to the subject RIG/Dakar
Draft Audit Report. Thank you for sharing the draft report and providing us the opportunity to
offer clarifications and our response. We view audits as an opportunity to improve USAID health
programming and accountability. Before addressing the two recommendations, we would like to
take the opportunity to clarify some of the information presented in the report.

  I.      CLARIFICATIONS

       	 Expired artemisinin combination therapies (ACTs) found in health facilities: There
          are four forms of the drug that are prescribed based on age/weight bands. In all of the
          facilities that the auditors visited, it was only the infant form of the drug that was expired
          (the tablet form and/or the syrup form). All of the health care providers recognized that
          the ACTs were expired and in most cases had set them aside, though they had not
          actually removed them from their stock as is recommended. For the tablet form
          (Coartem), all tablets contain the same dose of medication and it is only the number of
          tablets that differs according to the age/weight band. Thus even though one form was
          unavailable, infants still could have been treated with valid (non-expired) drugs by
          cutting the appropriate number of pills from one of the larger treatments. This is often
          done to manage inconsistent drug availability.

       	 Long lasting insecticide-treated nets (LLINs) found in storage at districts: The audit
          report implies that the LLINs found at the district health offices had not been
          appropriately accounted for. USAID and NetWorks were aware that there was a stock of
          LLINs at the Maleme Hodar district office and this information was conveyed to the


                                                                                                       9
                                                                                                     Appendix II


        auditors prior to the field visits (see document “Quantité de MILDA disponibles par
        magasins de stockage dans les regions des phases 5-6”). These nets were destined for
        distribution as part of the routine distribution system within Maleme Hodar district, and
        not for a mass campaign in other parts of the country as the audit report states. The
        routine system had not yet begun operating in Maleme Hodar at the time of the audit
        visit.

        Conversely, the Mission was not aware that nets remained in Guinguineo district.
        Following the field visit, NetWorks personnel explained that these nets had been
        unclaimed during the initial distribution phase and that the district had requested to keep
        them in order to follow-up with the households for whom the nets were destined.
        NetWorks was under the impression that this had been done, but the district had not
        followed-through on this activity.

    	 Evaluation of the Central Medical Stores: The audit report makes reference to the
       USAID-funded assessment of the Central Medical Stores (CMS) conducted in 2011 and
       states that “the evaluation(s)5 noted many of the same problems observed during this
       audit; although the evaluation(s) concerned health districts that the audit team did not
       visit.” It should be clarified that the CMS evaluation only concerned the central and
       regional branches of the national supply system – this system does not extend to the
       district level or below. The audit, on the other hand, only examined the district and health
       facility levels. Health districts are clients of the CMS system, but there is no institutional
       relationship between the two.

        Further, while the CMS does indeed generate profits at the central level (as described in
        the assessment report), and health facilities charge fees for services and drugs/supplies
        under the country’s cost recovery system, both ACTs and RDTs are provided free of
        charge to patients. Thus diagnosis and treatment of malaria do not generate any profits
        for the health system or the CMS and this is thought to be at least partially to blame for
        the lack of attention paid to ensuring a consistent supply.

In addition, the following points are important to understand the context in which the audit was
conducted:
     Transition between projects: The audit was conducted just seven months after the start
        of USAID/Senegal’s new five-year health strategy. For the two bilateral projects
        concerned there was a period of approximately six months of limited activities and close-
        out at the end of the award (March to September 2011). Subsequently, time was required
        for both projects to start up after their new awards were signed at the end of September.
        Thus when the auditors conducted field visits in May 2012, the new projects had only
        been operating for a few months.


5 This portion of the audit report refers to two evaluations – the CMS and the Community Health project.



                                                                                                             10
                                                                                          Appendix II


    	 Sites sampled: USAID/Senegal recognizes that the RIG is severely constrained in its
       ability to conduct field visits on a scale that would be representative of all activities under
       review. Nevertheless, only two out of more than 1,600 health huts that USAID/Senegal
       supported during fiscal years 2010 and 2011 were actually visited during the course of
       the audit.


 II.	   USAID/SENEGAL RESPONSE TO THE AUDIT FINDINGS AND 

        RECOMMENDATIONS


Finding: Partners did not adequately monitor health facilities

Recommendation 1: We recommend that USAID/Senegal, in conjunction with the ChildFund
Consortium, implement a plan to strengthen the supervision provided to health huts.

Recommendation 2: We recommend that USAID/Senegal, in conjunction with IntraHealth
International, implement a plan to strengthen supervision provided to district health facilities.

USAID/Senegal’s position on the finding and Recommendations 1 and 2: USAID/Senegal
concurs with the finding that monitoring of health facilities was inadequate.

Ensuring consistent and quality supervision has been a longstanding problem in Senegal’s health
system. Poor performance due to a lack of responsibility on the part of health care workers, and
lack of either sanctions for poor performance or reward for outstanding performance are
contributing factors. Funds for supervision are specifically allocated in district budgets, but often
go unused. In addition, the health worker unions have also instituted a boycott of supervision
activities, reinforcing the longstanding data retention strike. USAID/Senegal has raised this issue
repeatedly to the Ministry of Health in instances such as the annual Joint Portfolio Review and
the semi-annual USAID/MOH health steering committee, but no significant changes have been
implemented.

Supply chain management is also a longstanding and complicated problem. As the audit report
notes, USAID/Senegal supported an assessment of the supply system in an effort to identify the
root causes of stock shortages. The report revealed challenges at both the national and regional
levels and USAID/Senegal has taken steps to address the most pressing problems under its new
health strategy. The Health Systems Strengthening Program Component has two advisors placed
at the CMS office to directly provide technical assistance, and the Health Services Improvement
Program Component has an increased emphasis on logistical management at the district and
health facility levels. In addition, a “push model” is being tested by the MOH Immunization
Program whereby vaccines are delivered directly to health facilities on a monthly basis. If the
pilot phase proves to be successful, USAID/Senegal will consider supporting the expansion of
this model to other key commodities, including antimalarials and contraceptives.

While USAID/Senegal concedes that monitoring was inadequate, at the level of the health post
we wish to clarify that this is largely beyond the control of the implementing partner. Whereas



                                                                                                    11
                                                                                        Appendix II


ChildFund employed a staff of more than 200 field personnel, most of whom had the primary
responsibility of “accompanying” communities in the functioning of their health huts,
IntraHealth had only 10 regional advisors operating during the period that the audit covers.
These advisors worked with the national programs (in particular the National Malaria Control
Program, NMCP), regional and district management teams, and health facility personnel to
support supervision to lower levels. This support included the revision of tools, provision of
funding for field visits, and logistical support. However, IntraHealth had no direct authority over
any of these actors and could only “make supervision happen” if the health system personnel
were willing and able.

Lists of the rather extensive supervision activities implemented by IntraHealth and ChildFund
during fiscal years 2010 and 2011 are provided in Attachments 1 and 2.

III. ACTION TAKEN/PLANNED
As noted in the draft audit report, the new USAID/Senegal health strategy came into effect in
October 2011. The new strategy was developed after extensive consultation with the Ministry of
Health, donors and other stakeholders. In addition, end of project evaluations were carried out
and the new projects were developed to address specific challenges encountered under the
previous program. In particular, the new projects include measures to address the issues of
supervision and supply chain management. Some of the specific areas of focus relevant to this
audit include the following:

Health Systems Strengthening (HSS) Program Component:
    Implemented by Abt Associates
    Sub-Component: Improved management, processes and system performance at the
      regional and district levels.
    Expected outcomes for this Program Component include:
          o	 Regional and district teams effectively monitor, assess, evaluate and report on
             program activities and performance

           o	 Pharmaceutical products and contraceptives managed well, with adequate
              forecasting, distribution and reporting to ensure stock is available at each facility


Health Services Improvement (HSI) Program Component:
    Implemented by IntraHealth International
    Sub-Component: Improved functioning of health services in public health posts, health
      centers and regional hospitals for related priority services
    Expected outcomes for this Program Component include:
          o	 Contraceptives, antimalarials, other drugs, and other products are available for use
              in the integrated package
          o	 Regular supervision is conducted at all levels (clinical and community)

Community Health (CH) Program Component:


                                                                                                 12
                                                                                         Appendix II


      Implemented by ChildFund
      Sub-Component: Improved quality of and access to information, products, and services at
       health huts and outreach sites
      Expected outcomes for this Program Component include:
          o	 Community workers adequately trained, equipped, and supervised to provide
               quality services
          o	 Consistent availability of essential drugs and other health commodities at
               community service delivery sites

These three program components work closely together, with the HSS Component working at
the national, regional and district levels to define policies, guidelines, and protocols, and the HSI
and CH components focusing on implementation of these guidance and policies with health
committees at all health centers, health posts, and health huts.

Following the audit field visit, USAID/Senegal took prompt action to address the problems that
were identified. An initial meeting was held on May 2 with all of the health partners to provide
feedback and discuss their roles in improving the situation. After the discussion draft was issued,
USAID/Senegal called a meeting on May 23 with ChildFund, IntraHealth and the NMCP to
discuss the specific audit findings related to supervision and to brainstorm potential solutions.
Finally, on July 5 a follow-up meeting was held with ChildFund and IntraHealth to discuss their
specific plans for strengthening supervision. The plans developed by each partner are included as
Attachments 3 and 4.

At the community level, ChildFund has established a committee composed of representatives of
all seven NGOs to review supervision practices and recommend improvements. The supervision
checklist used for health huts has already been revised to make it simpler and more focused on
key performance areas. The guide is in module format so that supervisors can focus on only one
or two areas at each visit, with all modules being used over the course of a quarter. The module
on stock management will be used at every visit to ensure that any problems in this critical area
are promptly addressed. In addition, Community Development Agents will receive refresher
training on how to implement quality supervision that specifically focuses on identifying
weaknesses and following up on recommendations (planned for August). Finally, once the
National Community Health Strategy is developed and adopted by the Ministry of Health, there
will be greater focus on involving local authorities in the oversight and management of health
huts. Since the time of the audit, the ChildFund consortium NGOs have conducted more than
3,000 supervision visits from zone offices to health huts in all 14 regions, with a renewed focus
on quality.

At the clinical level, IntraHealth is expanding the “Tutorat Plus” approach that focuses on quality
improvement and supportive supervision. Fifteen districts are already enrolled and by the end of
the project’s third year, 65 of 76 health districts will be implementing this approach. IntraHealth
is also putting greater emphasis on direct support for program supervision by the NMCP and
districts (direct funding of their annual work plans), as well as logistics supervision in
collaboration with the Division of Reproductive Health and the Regional Medical Stores. The
pilot implementation of performance-based financing in three districts is in its start-up phase and


                                                                                                   13
                                                                                       Appendix II


is also expected to improve supervision, since the achievement of the targeted results will require
close monitoring. It must be noted, however, that it will be extremely challenging to strengthen
supervision at the clinical level if the current supervision boycott by health worker unions
continues. In the last quarter (April to June) IntraHealth supervised eight district management
teams, 227 health facilities, 74 district drug depots, and 73 health center drug depots; the
majority of these visits were done in May and June, after feedback on the audit results had been
provided.

USAID/Senegal believes that adequate steps have been taken to address the problems identified
by the audit, and that the supervision plans developed and being implemented respond to the
audit recommendations. Therefore, USAID/Senegal requests that Recommendations 1 and 2
be closed upon issuance of the final audit report.

Attachments:
   1. List of supervision visits conducted by IntraHealth during FY2010 and FY2011
   2. List of supervision visits conducted by ChildFund during FY2010 and FY2011
   3. IntraHealth plan to strengthen supervision
   4. ChildFund plan to strengthen supervision




                                                                                                14
U.S. Agency for International Development 

       Office of Inspector General 

      1300 Pennsylvania Avenue, NW 

          Washington, DC 20523 

            Tel: 202-712-1150 

            Fax: 202-216-3047 

           www.usaid.gov/oig
